CERTIFICATE OF SERVICE
NO. TBD
Christopher Chestnut
Petitioner,
v.
Justice Charles Canady, et al.
Respondents.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Christopher Chestnut Petition for Writ of Certiorari, by mailing a true and correct copies of
the same by Fedex 2-Day, prepaid for deliveryto the following address.
William H. Stafford, III
Office of the Attorney General
PL-01 The Capitol
Tallahassee, FL 32399-1050
(850)414-3785
* Counsel for Justice Charles Canady, et al.

Lucas T5eDeus

September 27, 2021
SCP Tracking: Chestnut-18 NW 8th Avenue-Cover White

CERTIFICATE OF WORD COUNT
No. TBD
Christopher Chestnut,
Petitioner,
v.
Justice Charles Canady, et al.,
Respondents.
STATE OF MASSACHUSETTS)
COUNTY OFNORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Christopher Chestnut
Petition for Writ of Certiorari contains 4734 words, including the parts of the brief that are
■required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

-■?

Lucas'DeDeus
September 27, 2021

SCP Tracking: Chestnut-18 .NW 8th Avenue-Cover White

